No. 19-678
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES EX REL. LAURENCE SCHNEIDER, PETITIONER
v.
JPMORGAN CHASE BANK, NATIONAL ASSOCIATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 4th day of March, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5298 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 4, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0678
UNITED STATES, EX REL. LAURENCE SCHNEIDER
JPMORGAN CHAE BANK, NATIONAL
ASSOCIATION, ET AL.

ROBERTO LUIGI DI MARCO
FOSTER, WALKER & DI MARCO, P.C.
350 MAIN STREET,
3RD FL
MALDEN , MA 02148
781-3223700
RDIMARCO@FWD-LAW.COM
MARK W. MOSIER
COVINGTON & BURLING, LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5435
MMOSIER@COV.COM

